VERIFICATION / DECLARATION UNDER PENALTY OF
PERJURY
Pursuant to 28 U.S.C. § 1746 the Respondent states under penalty of perjur
y
and under the laws of the United States that the foregoing is true and correc
t; that
Respondent has read the foregoing and affixed his /signature hereto at
North Fork
Correctional Center on this
ay of re be-02-6762 I- 18 U.S.C. § 1621.

CERTIFICATE OF SERVICE & MAIL BOX RULE
I, Wayne Duke Kalbaugh, the Respondent a prisoner in the Oklahoma Depar
tment
of Corrections, hereby invokes the authority of Houston VS. Lack, 487
U.S. 266,
267, 108 S.Ct. 2379 (1988), that states a prisoner in State custody filing any
Federal
documents or pleadings has filed "at the moment of delivery to prison author
ity for
forwarding to the Court." Fed. R. App. P. 4(c) (1). In invoking the above
, and in
accordance with Price VS. Philpot, 420 F.3d 1158, 1166 (10th Cir. 2005),
I Wayne
Duke Kalbaugh, on my oath , state I have sed the prison legal mail system
and made
delivery to prison authority on this /.Swday of res-09-41 ( I mailed a
true and
correct copy of the foregoing pursuant to Rule 29.2, U.S.C. § 1746 by placin
g same
into the institutional legal mailing system at the North Fork Correctiona
l Center
with postage pre-paid thereon to:
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543
(202)479-3034

Respectfylly Submitted this: A.

15

/5 /

Wayne Duke Kalbaugh Doc# 450429
N.F.C.C. / C— W— I&i
1605 EAST MAIN STREET
SAYRE, OKLAHOMA 73662

Mrs. Ambre Camille Gooch
Collins, Zorn & Wagner, P.C.
429 N.E. 50th Street, 2nd Floor
Oklahoma City, OK 73105
(405)524-2070

Additional material
from this filing is
available in the
Clerk's Office.

